<html>
<title> - H.R. 546, H.R. 2457 and H.R. 2715</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                   H.R. 546, H.R. 2457 and H.R. 2715

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, July 22, 2003

                               __________

                           Serial No. 108-44

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov



                                 ______

83-959              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
     DONNA M. CHRISTENSEN, Virgin Islands, Ranking Democrat Member

Elton Gallegly, California           Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Ron Kind, Wisconsin
Wayne T. Gilchrest, Maryland         Tom Udall, New Mexico
Barbara Cubin, Wyoming               Mark Udall, Colorado
Walter B. Jones, Jr., North          Anibal Acevedo-Vila, Puerto Rico
    Carolina                         Raul M. Grijalva, Arizona
Chris Cannon, Utah                   Dennis A. Cardoza, California
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Nick J. Rahall II, West Virginia, 
Mark E. Souder, Indiana                  ex officio
Rob Bishop, Utah
Richard W. Pombo, California, ex 
    officio


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 22, 2003....................................     1

Statement of Members:
    Case, Hon. Ed, a Representative in Congress from the State of 
      Hawaii.....................................................     3
        Prepared statement on H.R. 546...........................     4
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands, Prepared statement on H.R. 546, H.R. 2457 
      and H.R. 2715..............................................     6
    Mica, Hon. John, a Representative in Congress from the State 
      of Florida.................................................     5
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement on H.R. 546, H.R. 2457 and H.R. 2715..     2

Statement of Witnesses:
    Adams, Dr. William R., Ph.D., Vice President, Colonial St. 
      Augustine Preservation Foundation, Inc., St. Augustine, 
      Florida....................................................     7
        Prepared statement on H.R. 2457..........................     9
    Jarvis, Jon, Regional Director, Pacific West Region, National 
      Park Service, U.S. Department of the Interior, Oakland, 
      California,................................................    10
        Prepared statement on H.R. 546...........................    10
        Prepared statement on H.R. 2457..........................    12
        Prepared statement on H.R. 2715..........................    14


 LEGISLATIVE HEARING ON H.R. 546, TO REVISE THE BOUNDARY OF THE KALOKO-
  HONOKOHAU NATIONAL HISTORICAL PARK IN THE STATE OF HAWAII, AND FOR 
OTHER PURPOSES; H.R. 2457, TO AUTHORIZE FUNDS FOR AN EDUCATIONAL CENTER 
    FOR THE CASTILLO DE SAN MARCOS NATIONAL MONUMENT, AND FOR OTHER 
   PURPOSES; AND H.R. 2715, TO PROVIDE FOR NECESSARY IMPROVEMENTS TO 
     FACILITIES AT YOSEMITE NATIONAL PARK, AND FOR OTHER PURPOSES.

                              ----------                              


                         Tuesday, July 22, 2003

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              <plus-minus>


    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
room 1334, Longworth House Office Building, Hon. George 
Radanovich [Chairman of the Subcommittee] presiding.
    Present: Representatives Radanovich, Kildee, and Grijalva.

STATEMENT OF THE HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good afternoon. The Subcommittee on 
National Parks, Recreation and Public Lands is called to order. 
This is a hearing on H.R. 546, H.R. 2457 and H.R. 2715.
    Our first bill, H.R. 546, introduced by Congressman Ed Case 
of Hawaii, would revise the boundary of the Kaloko-Honokohau 
National Historic Park in the State of Hawaii.
    Our second bill, H.R. 2457, introduced by Congressman John 
Mica of Florida, would authorize funds for an educational 
center for the Castillo de San Marcos National Monument.
    Our last bill, H.R. 2715, which I introduced, provides 
necessary improvements for the facilities at Yosemite National 
Park.
    Mr. Radanovich. Specifically, my bill, among other things, 
would direct the Secretary of Interior to restore the campsites 
at Upper and Lower River campgrounds, construct the maximum 
number of parking spaces in and around Camp 6 and prohibit the 
implementation of an out-of-Valley shuttle using remote parking 
facilities.
    While I introduced H.R. 2715 for a number of reasons, my 
primary reason is to have the Service restore the number of 
campsites that existed in Yosemite Valley prior to the 1997 
Merced River flood. At the Subcommittee's April 22 field 
hearing, the Service told me that they are prohibited from 
administratively amending the December, 2000, Yosemite Valley 
plan to adjust the campground numbers. I would like to fix this 
problem legislatively.
    In addition, my bill would direct the Secretary to remove 
the LeConte Memorial from the park. I believe the LeConte 
Memorial Lodge, which is operated by the Sierra Club, is 
inconsistent with the Club's stated opposition to restoring 
Upper and Lower River campgrounds and to minimize the human 
footprint in the Valley. Private use permits such as that 
permit for the LeConte Memorial Lodge are not as important as 
public use as park resources such as low-impact camping. If the 
Sierra Club is serious about reducing the human impact in 
Yosemite Valley, the Lodge should be removed and that portion 
of the Valley restored to its natural condition. Any other 
position is nothing short of hypocritical.
    Mrs. Christensen, I understand will not be here, I would 
ask unanimous consent that Mr. Case and Mr. Mica be permitted 
to sit on the dais following these statements. Without any 
objection--I don't see any objection here, so ordered.
    [The prepared statement of Mr. Radanovich follows:]

Statement of The Honorable George Radanovich, Chairman, Subcommittee on 
 National Parks, Recreation, and Public Lands, on H.R. 546, H.R. 2457, 
                             and H.R. 2715

    Good afternoon. The hearing will come to order
    This afternoon, the Subcommittee on National Parks, Recreation, and 
Public Lands will receive testimony on three bills--H.R. 546, H.R. 2457 
and H.R. 2715.
    Our first bill, H.R. 546, introduced by Congressman Ed Case of 
Hawaii, revises the boundary of the Kaloko Historical Park in the State 
of Hawaii.
    Our second bill, H.R. 2457, introduced by Congressman John Mica of 
Florida, would authorize funds for an educational center for the 
Castillo (Cos-tee-yo) de San Marcos National Monument.
    Our last bill, H.R. 2715, which I introduced, would provide for 
necessary improvements to facilities at Yosemite National Park. 
Specifically, my bill would, among other things, direct the Secretary 
of the Interior to restore the camp sites at the Upper and Lower River 
campgrounds, construct the maximum number of parking spaces in and 
around Camp 6, and prohibit the implementation of an out-of-valley 
shuttle system using remote parking facilities. While I introduced H.R. 
2715 for a number of reasons, my primary reason is to have the Service 
restore the number of campsites that existed in Yosemite Valley prior 
to the 1997 Merced River Flood. At the Subcommittee's April 22 field 
hearing, the Service told me that they are prohibited from 
administratively amending their December 2000 Yosemite Valley Plan to 
adjust the campground numbers. I would like to fix this problem 
legislatively.
    In addition, my bill would direct the Secretary to remove the 
LeConte Memorial from the Park. I believe the LeConte Memorial Lodge, 
which is operated by the Sierra Club, is inconsistent with the Club's 
stated opposition to restoring Upper and Lower River Campgrounds, and 
to minimizing the human footprint in the Valley. Certainly private use 
permits, such as the permit for the LeConte Memorial Lodge, are not as 
important as public uses of park resources, such as low impact camping. 
If the Sierra Club is serious about reducing human impact in the 
Valley, the Lodge should be removed and that portion of the Valley 
restored to its natural condition. Any other position is nothing short 
of hypocritical.
    Before turning the time over to Mrs. Christensen, I would ask 
unanimous consent that Mr. Case and Mr. Mica be permitted to sit on the 
dais following their statements. Without objection, so ordered.
    I now turn to the Ranking Member, Mrs. Christensen for any opening 
statement she may have.
                                 ______
                                 
    Mr. Radanovich. I will now then go ahead and turn to our 
first panel of witnesses; and I want to welcome the Honorable 
Ed Case, Representative from Hawaii, to the Committee.
    Mr. Case, welcome. You are here to speak on your bill, H.R. 
546. I apologize for maybe butchering the names that were 
included in there, and maybe you can set me straight on the 
proper pronunciation.

  STATEMENT OF THE HON. ED CASE, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF HAWAII

    Mr. Case. Thank you very much, Mr. Chair. I would be happy 
to give private lessons later on. First of all, it is ``Kaloko-
Honokohau.''
    I thank you very much for considering H.R. 546, which is to 
authorize expansion of the Kaloko-Honokohau National Historic 
Park by two acres. You have my written testimony, Mr. Chair; 
and I would ask the Committee's consent to simply insert that 
into the record, if that is permissible.
    Mr. Radanovich. Hearing no objection, so ordered.
    Mr. Case. I have reviewed the supportive written testimony 
of the National Park Service, and am very much supportive in 
endorsing that.
    So what I would like to do with my time, Mr. Chair, is to 
give you the big picture of where this bill fits into efforts 
to protect the incredibly valuable and unique natural, scenic, 
recreational and historic resources of my Hawaii. And these are 
rich resources indeed. They range everywhere in incredible 
numbers, in fact, from the highest numbers in our country of 
endangered plants and species; to incredibly unique national 
and scenic resources from active volcanoes to fantastic 
coastlines and seashores, and then finally the historic 
physical remains of a rich, prosperous and advanced indigenous 
culture well over a thousand years old. All of these are not 
only State but national and international treasures, and all of 
them are endangered or threatened for one reason or another.
    On the West Coast of the Island of Hawaii, where Kaloko-
Honokohau is located, the major threat is development: rapid 
development, urban development, not particularly smart growth 
on the Kona Coast. We have seen most of the rapid and spread-
out growth in all of Hawaii over the past decade. This 
Committee and this Congress together with the National Park 
Service have recognized all of this over a period of decades 
through many actions throughout Hawaii for which I am most 
grateful.
    On the Big Island of Hawaii alone, on the West Coast, the 
Kona Coast, some of those efforts have been: the designation of 
Puuhonua o Honaunau National Historic Park, the so-called City 
of Refuge, a deeply significant site of ancient Hawaiian 
culture; Puukohola Heiau National Historic Site, which is the 
great war temple of Kamehameha I; the Ala Kahakai National 
Historic Trail, which is the ancient road, the ancient way 
around the entire Island of Hawaii; and then, finally, just a 
few weeks ago, the huge expansion of really the crown jewel, 
Hawaii Volcanoes National Park, with the addition of Kahuku 
Ranch.
    Now Kaloko-Honokohau National Historical Park is an 
integral part of this overall effort to protect the natural, 
scenic and cultural resources of the Island of Hawaii. It 
really has everything that we are talking about here. It has 
incredibly significant ancient ruins, ranging from an ancient 
fish pond to house sites. It has endangered plants. It has a 
major portion of the Ala Kahakai ancient trail that runs 
through it. So this site is an incredibly valuable component of 
our overall national, international and State efforts to 
protect the scenic and natural resources of my State.
    This site has done very well but lacks one thing, and that 
is adequate administration and parking facilities. The 
particular bill in front of this Committee would take a 2.1 
acre site immediately adjacent to the current park with a 
building that is already in existence on it and really turn 
that into parking and administration for the site. It is a 
fantastic siting and fantastic addition to the park. I was just 
there about a week-and-a-half ago and did my own site 
inspection. I overflew the park, and it is really everything 
that we are expecting it to be.
    The National Park Service is supportive not only because it 
needs these facilities at this particular park, but because 
what it hopes to do in addition is to run its administrative 
efforts for all of West Hawaii out of this particular site, 
ranging from Puukohola, which is up to the north, and on down 
to Puuhonua o Honaunau in the south. So this is really a very 
important effort that I urge this Committee's support for and 
appreciate this Committee's anticipated support.
    I would be happy to answer any questions; and I look 
forward, once we get this one over with, to a number of other 
efforts that I would love to bring to the Committee's attention 
having to do with other sites in Hawaii. As always, I offer the 
benefit of an in-depth site visit should the Committee deem it 
appropriate. We can certainly show you what we are all about. 
Thank you very much.
    Mr. Radanovich. Thank you very much, Mr. Case. Appreciate 
your testimony.
    [The prepared statement of Mr. Case follows:]

 Statement of The Honorable Ed Case, a Representative in Congress from 
                    the State of Hawaii, on H.R. 546

    Chairman Radanovich, Ranking Member Christensen, and Members of the 
Subcommittee:
    Aloha! Thank you for giving me the opportunity today to testify in 
support of my bill to authorize expansion of the Kaloko-Honokohau 
National Historical Park, located on the Kona Coast of the Island of 
Hawaii. This bill is identical to Senator Daniel Akaka's bill S. 254, 
which passed the Senate on March 4, 2003, and was referred to this 
Subcommittee.
    H.R. 546 and S. 254 authorize expansion of the park boundaries to 
allow the National Park Service to purchase a 2.14-acre parcel with an 
existing building to serve as a park headquarters. The park has been 
without a permanent headquarters since its establishment in 1978, and 
is now renting space some distance from the park.
    Kaloko-Honokohau National Historical Park was created for the 
national preservation, protection and interpretation of traditional 
native Hawaiian activities and culture. This 1,160-acre park is 
remarkable not only for its cultural and historical attributes, but as 
an incredibly beautiful, unspoiled natural treasure. The park is the 
site of an ancient Hawaiian settlement, which encompasses portions of 
four different ahupua'a, or traditional sea-to-mountain land divisions. 
Its resources include ancient fishponds, kahua (house site platforms), 
ki'i pohaku (petroglyphs), a holua (stone slide), and heiau (religious 
sites). The park is of tremendous significance to the people of Hawaii, 
and especially to indigenous Native Hawaiians.
    The National Park Service is currently renting space for its 
headquarters at a cost of $150,000 a year. The current headquarters 
only has parking for three to four visitors at a time, which is 
woefully inadequate to accommodate the growing number of visitors to 
the park. Visitors increased from 54,000 in 2001 to 70,000 in 2002. The 
proposed acquisition has plenty of parking for visitors and park 
vehicles. And the existing building has more than adequate space for 
the park's administrative needs and interpretive mission. The already-
developed parcel has the additional benefit of being right next to the 
park; therefore, the fragile resources within the current park 
boundaries will not be adversely affected.
    I strongly encourage the Subcommittee members to come to my 
birthplace, the Big Island of Hawaii, to visit this remarkable park, 
and I thank you for considering this legislation.
                                 ______
                                 
    Mr. Radanovich. As you know, we have had a vote call here; 
and I think what we are going to try to do is hear from our 
first panel, take a break and vote, and then come back and hear 
the testimony from panel 2.
    So joining us now is the Honorable John Mica, who is 
representing the Seventh District of Florida, here to speak on 
H.R. 2457.
    John, welcome to the Committee; and as soon as you are 
done, we will all go vote.

 STATEMENT OF THE HON. JOHN MICA, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Mica. I will try to be brief so we don't miss the vote.
    I appreciate your hearing my legislation, Mr. Chairman and 
members of the Committee. H.R. 2457 is legislation that would 
authorize basically Federal participation in what I consider a 
very unique partnership to one of our national treasures, 
Castillo de San Marcos.
    I think some of you may be familiar with this site, which 
is now run by the National Park Service. You can see the 
Castillo here and on existing Federal park property the 
Department of Interior and National Park Service, and it served 
us well for some 400 years. It is probably the most historic 
fort that we have in the United States, certainly one of the 
most complete and earliest documented national treasures, as I 
said.
    It is very difficult to reconfigure that type of facility 
to today's demand on tourism, and we have millions of tourists 
for a small community of some 12,000 who visit St. Augustine, 
who visit there. It is also difficult to keep up with things 
like our requirements for citizens with disability. It is 
difficult to also put some of the national treasures, archival 
records and other things that are so important to a fully 
educational experience on display, given the parameters of a 
castle and fortress of this age.
    And the States recognize this. The City of St. Augustine 
has recognized this. A unique partnership, Colonial St. 
Augustine Preservation Foundation, a private sector group has 
come together; and, right now, across the street, in some of 
the areas--and you will have to excuse me, I am a bit color 
blind. But the blue area that is being pointed out here, the 
State of Florida owns; and the purple area, the City of St. 
Augustine owns; and then we have some commercial areas, too, 
that--what color is that--the yellow ones that we are looking 
to acquire. This would--this is also on a very historic street, 
area of the colonial St. Augustine area. But what we are 
looking at doing is creating a visitor center and taking out 
some of the tacky development and complete the experience for 
the visitor and put some basic accommodations and historical 
display that can only be accommodated by a new structure. So 
that is the plan.
    I want to stress again it is a unique approach. It would 
have a partnership, again, the private sector, the State of 
Florida, the City of St. Augustine joining together and 
eventually have this turned over to the National Park Service.
    We believe we can also, as part of that plan, eliminate any 
of the future costs. This is not a new idea, Mr. Chairman. 
Since 1977, it has been part of a proposed master plan but 
never all of these things come together to allow us to develop 
this. So we would encourage your authorization.
    We are looking at about half of the $8.2 million project to 
be funded by the Federal Government; about $4 million, the 
balance, to be contributed by State, City and the private 
foundation.
    You will hear in a few minutes after this vote from Dr. 
Bill Adams, who is Vice President of the Foundation; and he 
will explain their unique role and also moving this project 
forward at I think very little cost to the taxpayers but great 
benefit to the future.
    So, with that, I urge your support. I would like to see 
this authorized sooner rather than later and be glad to answer 
questions maybe when we come back.
    Mr. Radanovich. Thanks, John. I appreciate that as well as 
testimony from you, Mr. Case. Thank you for coming before the 
Subcommittee. If you will join us after the vote, we will have 
the second panel and address both of your bills.
    We are in recess to go vote.
    [Recess.]
    Mr. Radanovich. The Committee is back in session.
    We are going to introduce our second panel, but before we 
do that, I want to recognize Mr. Kildee.
    Mr. Kildee. Mr. Chairman, I ask unanimous consent to submit 
the statement of the Ranking Member, Donna Christensen, into 
the record.
    Mr. Radanovich. There being no objection, so ordered. Thank 
you, sir.
    [The prepared statement of Mrs. Christensen follows:]

 Statement of The Honorable Donna Christensen, a Delegate in Congress 
     from the Virgin Islands, on H.R. 546, H.R. 2457 and H.R. 2715

    Mr. Chairman, today the Subcommittee is meeting to receive 
testimony on three unrelated bills.
    Our first bill, H.R. 546, sponsored by our colleague Ed Case, would 
expand the boundary of the ``KA-lo-ko hon-o-ko-HOW'' National 
Historical Park on the western shore of the Island of Hawaii.
    It is our understanding that the National Park Service currently 
rents space in a building near the Park for use as a visitor's center 
and administrative offices. Apparently, there is a much larger space 
for sale nearby.
    This legislation will alter the boundary of the Park to include 
this building so that the Park Service might acquire the new space for 
Park use. We look forward to hearing about the Park and about the need 
for this expansion and acquisition.
    Our second measure is H.R. 2457, sponsored by Representative Mica. 
Like the Park in Hawaii, the Castillo de San Marcos National Monument 
in Florida has no visitor's center. To remedy this, H.R. 2457 would 
authorize a total of $4 million in grants to the City of St. Augustine, 
Florida and the Colonial St. Augustine Preservation Foundation for the 
design and construction of a visitor's center for the Monument. The 
legislation would require that the City and the Foundation provide a 50 
percent match for these grants and enter into a cooperative agreement 
with the National Park Service.
    This approach to providing visitor facilities for a unit of the 
National Park System is unusual and raises several concerns. In 
particular, it is our understanding that the National Park Service is 
in the process of preparing a new general management plan for the 
Monument and authorization of a new visitor's facility may be premature 
if it takes place before completion of the new plan. We look forward to 
input on this issue from our witnesses.
    Our last bill, H.R. 2715, which you introduced just last week, 
would make significant changes to the approved plans for the 
preservation and use of Yosemite National Park.
    Mr. Chairman I certainly appreciated having the opportunity this 
Spring to travel to Yosemite National Park and participate with you in 
the Subcommittee's field hearing in Yosemite Valley.
    The Yosemite Valley Plan is a far-reaching document that was 
developed over a long period of time with considerable public input. As 
NPS Director Mainella noted, public input has not ended with completion 
of the plan. Our field hearing showed there is significant ongoing 
local and national interest in the preservation and use of Yosemite 
National Park.
    Against that backdrop it should come as no surprise that the 
introduction of H.R. 2715 has generated significant interest and 
concern with the legislation from numerous individuals and 
organizations. Many of the provisions of the bill run directly counter 
to the Yosemite Valley Plan. As such, the Subcommittee will need to 
carefully consider the changes being proposed and their impact on the 
preservation and use of Yosemite National Park.
    Mr. Chairman, I appreciate the attendance of our witnesses and 
colleagues who are present with us and look forward to learning more 
about the matters we are considering today.
                                 ______
                                 
    Mr. Radanovich. With that I would like to introduce Mr. Jon 
Jarvis, who is the Regional Director of the Pacific West Region 
of the National Park Service, here to speak on all three bills, 
actually, H.R. 546, 2457 and 2715; and then Dr. William R. 
Adams, who is the Vice President of Colonial St. Augustine, 
Florida, here to speak on H.R. 2457. Mr. Adams, welcome.
    Each of you have about 5 minutes, and we will go through 
both of the testimonies. Mr. Mica, you are more than welcome to 
join us on the dais.
    Mr. Mica. I will stay down here with my folks. Thank you, 
Mr. Chairman.
    Mr. Radanovich. I did introduce Mr. Adams, and he is ready 
to begin his testimony. Mr. Adams, welcome.
    Again, if you follow the 5-minute timers, limit it to 5 
minutes, we would appreciate it. Thank you very much.

STATEMENT OF WILLIAM R. ADAMS, PH.D., VICE PRESIDENT, COLONIAL 
 ST. AUGUSTINE PRESERVATION FOUNDATION, ST. AUGUSTINE, FLORIDA 
                          (H.R. 2457)

    Mr. Adams. Thank you very much, Mr. Chairman. I am 
appearing before the Subcommittee on behalf of the Colonial St. 
Augustine Preservation Foundation, a not-for-profit 
organization whose purpose is to engage in and encourage public 
and private participation in preserving, restoring and 
reconstructing the historic colonial resources within the City 
of St. Augustine that embody that city's significant place in 
American history. I am also the director of the City of St. 
Augustine's Department of Heritage Tourism, which administers 
St. Augustine's visitor services program and manages a museum 
that interprets the city's colonial history.
    I am here today to urge the Subcommittee to act favorably 
upon House bill 2457, which authorizes funds to develop an 
educational center for the Castillo de San Marcos National 
Monument located in St. Augustine.
    In concert with the City of St. Augustine, the Foundation 
has identified the development of the proposed educational and 
orientation center for the Castillo as a first priority in the 
restoration of the colonial resources of the City.
    The visitor to the Castillo de San Marcos enters totally 
unprepared, leaving all but the very well educated unable 
either to understand its place in history or to fully enjoy the 
experience. The lessons about the past that this historic site, 
like any other great piece of history, ought to impart are, I 
strongly suspect, lost upon most. Few historic sites managed by 
the National Park Service or, for that matter, any State or 
local agency that administers them labor under such a 
disadvantage. No illustrations, no film, no lectures of any 
kind prepare the visitor.
    Especially disadvantaged are the schoolchildren, some 
75,000 of whom arrive annually on sponsored visits, and the 
disabled, who cannot gain access to the terreplain or upper 
level of the Castillo because its features prohibit 
construction or access ways to them.
    The Castillo itself and the grounds surrounding it contain 
no space upon which to erect a center for orienting visitors. 
For that matter, the City and the Foundation selected--for that 
purpose, the City and the Foundation selected two obvious, 
well-situated and privately owned parcels adjacent to both the 
Castillo and the interpretive museum that is administered by 
the City. The City has already purchased one of those sites. 
The Foundation has secured from the owner of another an 
agreement for sale. The City has also undertaken to secure the 
cooperation of the State of Florida, the owner of the 
surrounding lots, in this project.
    This effort to develop a visitors center for the Castillo 
is, accordingly, a partnership in every sense, for it will 
involve Federal, State and municipal governments along with the 
private sector, represented by the Foundation and the people 
who contribute to it. All will share in the cost of the 
center's development. The State of Florida and the City will 
contribute land to the project. The Foundation and the Federal 
Government will contribute the moneys for its construction. The 
City will bear the cost of managing the facility in future 
years, a not inconsiderable sum given the many millions of 
people who will enter in that time. The National Park Service 
will contribute only staffing to conduct visitor orientation.
    The siting and construction of the center will also 
contribute to the continuing restoration program through the 
removal of intrusive buildings and the replacement by buildings 
that in scale and appearance harmonize with the adjacent 
presidio museum.
    The opportunity and the participants for this important 
project are in place at this time. We are thankful to the 
Congressman for introducing this measure, and we urge your 
support. Thank you, sir.
    Mr. Radanovich. Thank you very much, Mr. Adams.
    [The prepared statement of Mr. Adams follows:]

         Statement of William R. Adams, Ph.D., Vice President, 
   Colonial St. Augustine Preservation Foundation, Inc., on H.R. 2457

    My name is William R. Adams. I am appearing before the Subcommittee 
on behalf of the Colonial St. Augustine Preservation Foundation, Inc., 
a not-for-profit organization whose purpose is to engage in and 
encourage public and private participation in preserving, restoring, 
and reconstructing the historic colonial resources within the City of 
St. Augustine that embody that city's significant place in American 
history. I am also the director of the City of St. Augustine's 
Department of Heritage Tourism, which administers St. Augustine's 
visitor services program and manages a museum that interprets the 
city's colonial history.
    The reason for my testimony today is to urge the Subcommittee to 
act favorably upon H.R. 2457, which authorizes funds to develop an 
educational center for the Castillo de San Marcos National Monument, 
located in St. Augustine. Before addressing the specifics of the 
proposed educational and orientation center, I would like to provide 
some historical background that might explain the need for the 
facility.
    The significance of St. Augustine to the history of the United 
States is manifest. Its historical resources incomparably testify to 
the contributions of Spain and Spanish-speaking people to the 
historical and cultural development of the United States. For over two 
centuries, St. Augustine served as the capital of the Spanish empire in 
this part of the continent and for most of that time constituted 
virtually the only population center in the vast southern region 
stretching from the Atlantic coast to the Mississippi River. The 
enormity of St. Augustine's contributions to the architectural and 
cultural heritage of America can hardly be weighed.
    Throughout the last century and a half of St. Augustine's 256-years 
long colonial era, the Castillo de San Marcos was the northern-most 
military outpost within Spain's enormous New World empire. It is the 
oldest masonry fort and the best preserved example of Spanish colonial 
fortification in the continental United States. Begun in 1672 and 
substantially completed by 1695, the Castillo subsequently enabled the 
Spanish to withstand two attempts by the English to drive them from St. 
Augustine and Florida.
    The War Department assumed control of the Castillo in 1821 when the 
United States took possession of Spain's Florida colonies. The 
venerable fortress was transferred to the National Park Service in 
1936. Since that time, it has been the central historical attraction 
within St. Augustine, with an average annual visitation of more than a 
half million.
    The Foundation that I represent here today has picked up the reins 
of a seven-decade long program to restore the northern section of the 
colonial presidio of St. Augustine, adjacent to the Castillo. That 
Restoration program, initiated in 1936 upon the recommendation of a 
national committee of citizens, public officials and scholars, was 
originally directed by a former chief historian and acting director of 
the Branch of Historic Sites and Buildings for the National Park 
Service, Dr. Verne Chatelain.
    From 1959 to 1997, the State of Florida administered the 
Restoration program. Upon the state's withdrawal, the City of St. 
Augustine, numbering only some 12,000 inhabitants, took responsibility 
for carrying on a project that is of inestimable importance to the 
interpretation of American colonial history. The Colonial St. Augustine 
Preservation Foundation was formed to mobilize the support of private 
citizens to assist the City in preserving and interpreting for its 
visitors St. Augustine's colonial legacy. In concert with the City of 
St. Augustine, the Foundation has identified the development of the 
proposed educational and orientation center for the Castillo as a first 
priority.
    The visitor to the Castillo de San Marcos enters the site coldly 
unprepared, leaving all but the very well educated unable either to 
understand its place in history or fully enjoy the experience. The 
lessons about the past that this historic site, like any other great 
piece of history, ought to impart are, I strongly suspect, lost upon 
most. Few historic sites managed by the National Park Service or, for 
that matter, any state and local agencies that administer them, labor 
under such a disadvantage. No illustrations, no film, no lectures of 
any kind prepare the visitor.
    Especially disadvantaged by the lack of an orientation center are 
school children, some 75,000 of whom arrive annually on sponsored 
visits; and the disabled, who cannot gain access to the terreplain or 
upper level of the Castillo because its features prohibit construction 
of access-ways for them.
    The Castillo itself and the grounds surrounding it contain no space 
upon which to erect a center for orienting visitors. For that purpose, 
the City and the Foundation selected two obvious, well situated and 
privately owned parcels adjacent to both the Castillo and the 
interpretive museum that is administered by the City. The City has 
already purchased one of those sites. The Foundation has secured from 
the owner of another an agreement for sale. The City has also 
undertaken to secure the cooperation of the State of Florida, the owner 
of the surrounding lots, in this project.
    This effort to develop a visitor's center for the Castillo is 
accordingly a partnership in every sense, for it will involve Federal, 
state and municipal governments along with the private sector, 
represented by the Foundation and the people who contribute to it. All 
will share in the cost of the center's development. The State of 
Florida and the City of St. Augustine will contribute land to the 
project; the Foundation and the Federal Government will contribute the 
monies for its construction. The City will bear the cost of managing 
the facility in future years, a not inconsiderable sum given the many 
millions of people who will enter in that time. The National Park 
Service will contribute staffing to conduct visitor orientation.
    The siting and construction of the center will also contribute to 
the continuing Restoration program through the removal of intrusive 
buildings and their replacement by buildings that in scale and 
appearance harmonize with the adjacent presidio museum. Our foundation 
is committed to this project and we respectfully urge your support.
                                 ______
                                 
    Mr. Radanovich. Mr. Jarvis, I know you have got 5 minutes 
to talk about three bills, and we just got another vote call. 
Why don't you take some time to explain these bills, and then 
we will break. We still have about another 10 minutes. If you 
would like to begin.

   STATEMENT OF JON JARVIS, REGIONAL DIRECTOR, PACIFIC WEST 
 REGION, NATIONAL PARK SERVICE, OAKLAND, CALIFORNIA (H.R. 546, 
                    H.R. 2457 AND H.R. 2715)

    Mr. Jarvis. I will go through them very quickly then.
    First, I will speak to the Kaloko-Honokohau bill.
    By the way, I am Jon Jarvis, Regional Director of the 
Pacific West Region. We have submitted our testimony for the 
record and thank you for the opportunity.
    The first bill, H.R. 546, the boundary adjustment to 
Kaloko-Honokohau, would add two parcels. We support that. The 
Department supports that bill. It will save the National Park 
Service approximately $150,000 per year in lease costs that we 
are currently paying.
    This facility will serve four parks on the Island of 
Hawaii. It is an existing building that is currently not being 
used and will be an excellent facility both for the visitors, 
administration and particularly for the collection and storage 
of the cultural items for the native culture.
    So, with that, that is all I have to say about that bill.
    Mr. Radanovich. That is great.
    [The prepared statement of Mr. Jarvis follows:]

   Statement of Jon Jarvis, Regional Director, Pacific West Region, 
  National Park Service, U.S. Department of the Interior, on H.R. 546

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on 
H.R. 546, a bill to revise the boundary of the Kaloko-Honokohau 
National Historical Park in the State of Hawaii.
    The Department supports the enactment of H.R. 546, which is 
virtually identical to S. 254 as passed by the Senate on March 3, 2003. 
This legislation would adjust the boundary of the Kaloko-Honokohau 
National Historical Park to include two adjacent parcels of land, 
totaling 2.14 acres, to be used as the park headquarters to house 
administrative, interpretive, resource management, and maintenance 
functions. No appraisal has been done of these properties, but both 
parcels and the building were assessed for a total of $2.0 million, 
according to Hawaii County public records. Purchasing this property 
would allow the National Park Service to relinquish its existing lease, 
which costs $150,000 per year. Over the long term, this acquisition 
would prove more cost-effective than continuing the lease, even when 
adding in estimated annual maintenance costs of $24,000-$48,000.
    Since 1988, the park has leased building space outside the park 
boundary to carry out needed administrative, interpretive, resource 
management and maintenance functions. These leased spaces have also 
been providing the basic means of visitor contact for park information 
and orientation. The amount of visitor parking available at this leased 
facility is completely inadequate (limited to 3 to 4 spaces).
    The two parcels are adjacent to the existing park boundary though 
separated from the park by a state highway right-of-way. More then 90 
percent of the land remains undeveloped and is large enough to 
accommodate the storage of park vehicles and equipment as well as 
visitor and staff parking. One of the parcels contains a 6,039 square-
foot, two-story concrete block building that would permit an easy and 
inexpensive retrofit for use as the park headquarters. The building has 
never been occupied and contains offices, restrooms, a reception lobby, 
lab, storage areas, and a garage with roll-up trucking access doors and 
a loading dock. The entire side of the building facing the park 
consists of glass block walls from which sweeping panoramic views of 
the park, including the ocean, can be seen. The building interior is 
air conditioned and finished with floor tile and carpeting.
    The location of the property between the Kona International Airport 
and the City of Kailua-Kona would be highly accessible to visitors to 
the Kona Coast and would be an invaluable asset for all of the National 
Park Service units on the Island of Hawaii. It could support the co-
location of a number of management functions for Pu`uhonua o Honaunau 
National Historical Park, Pu`ukohola Heiau National Historic Site, and 
would also house the offices of the Ala Kahakai National Historic 
Trail.
    Established in 1978, the purpose of Kaloko-Honokohau National 
Historical Park is to provide a site for the preservation, 
interpretation and perpetuation of traditional native Hawaiian culture 
and activities, and to demonstrate historic land use patterns. An 
important management goal at the park is to limit the development of 
facilities within the park to those directly related to visitor 
services. The acquisition of the properties that would be brought into 
the boundary by H.R. 546 would allow for facilities related to park 
operations, including administration, resource management and 
maintenance, to be permanently sited in a location that would not 
impact park values and resources. In that respect, the boundary 
adjustment would be consistent with National Park Service Management 
Policies that states ``the Service must avoid the construction of 
buildings, roads, and other developments that will cause unacceptable 
impacts on park resources and values.''
    Mr. Chairman, that concludes my prepared remarks and I will be 
happy to answer any questions you or other committee members might 
have.
                                 ______
                                 
    Mr. Jarvis. The second bill that I will speak to is H.R. 
2457.
    Again, thank you for the opportunity to speak to this 
regarding the authorization of funds for an education center at 
the Castillo de San Marcos in Florida.
    The Department of Interior strongly supports the concept of 
a partnership with the City and the Foundation. The need for a 
visitors' center was identified in the draft management plan 
which was prepared in 1977, and they identified not only the 
need for a visitor center but also the opportunity to do it 
jointly with partners.
    I would mention that plan is 25 years old, and the park has 
begun a new general management plan, just started this last 
year. We have public meetings planned for this fall and a 
public draft due out in the spring of 2004. This new GMP gives 
us the opportunity to flesh out the details of a partnership 
arrangement and how the National Park Service would most 
effectively participate with the Foundation and the City of St. 
Augustine; and, therefore, we would ask--the Department asks 
that they defer on H.R. 2457 until we complete the GMP, which 
would be next year, and also because of our emphasis this year 
on eliminating the maintenance backlog in the National Park 
System.
    And that concludes my testimony on that bill. Shall I keep 
rolling?
    Mr. Radanovich. Absolutely.
    [The prepared statement of Mr. Jarvis follows:]

   Statement of Jon Jarvis, Regional Director, Pacific West Region, 
  National Park Service, U.S. Department of the Interior, on H.R. 2457

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to present the Department's views on H.R. 2457. This bill 
would authorize funds for an educational center for the Castillo de San 
Marcos National Monument.
    The Department supports the concept of a cooperatively constructed 
and operated educational center for the Castillo de San Marcos National 
Monument (Monument) and the City of St. Augustine, Florida as outlined 
in H.R. 2457. However, because the National Park Service (NPS) is in 
the process of completing a General Management Plan (GMP) which will 
include an examination of the long-identified need for a Visitor Center 
at the Monument, we believe this legislation is premature and that the 
GMP process should be finalized before moving such a proposal. 
Additionally, in order to help us make further progress on the 
President's Initiative to eliminate the deferred maintenance backlog, 
we recommend that the Subcommittee defer action on H.R. 2457 during the 
108th Congress.
    H.R. 2457 authorizes the Secretary of the Interior (Secretary) to 
award grants to the City of St. Augustine and the Colonial St. 
Augustine Preservation Foundation (Foundation) for land acquisition, 
planning, design, and construction of an educational center for the 
Monument and attractions located within the City. The grants will not 
be awarded until the City and Foundation have secured contributions for 
a dollar-for-dollar match of the grant. Prior to awarding a grant 
authorized under this bill, the Secretary is directed to enter into a 
cooperative agreement with the City and Foundation for the planning, 
design, construction, operation and maintenance of the educational 
center. This agreement will allow all the parties to determine--before 
the new facility is built--what are the full life-cycle costs to 
operate and maintain the center, and how these costs will be shared.
    The Federal portion of the grants proposed by H.R. 2457 would be $2 
million for land acquisition, design, and planning, and an additional 
$2 million for construction. The Foundation has developed a conceptual 
design, as well as preliminary cost estimates for the educational 
center, which would be approximately 9,000 square feet in size and cost 
approximately $3 million. If constructed, NPS operational costs are 
expected to be minimal as one of the primary purposes of the 
educational center would be to provide a sales outlet for joint tickets 
to the Monument and City attractions. These ticket sales are expected 
to generate enough additional revenue to cover all operational costs of 
the educational center. If revenues from ticket sales do not cover all 
operational and maintenance costs, then the cooperative agreement will 
specify how the unfounded costs will be shared among NPS, the City, and 
the Foundation.
    The Castillo de San Marcos National Monument was originally 
proclaimed as Fort Marion National Monument, under the jurisdiction of 
the War Department, in 1924. The Monument was transferred to NPS in 
1933 and renamed in 1942 and is located in St. Augustine, Florida, the 
oldest continuously occupied European settlement in the Continental 
United States. The Spanish, who controlled Florida for 225 years before 
it became a United States territory, constructed the Castillo de San 
Marcos, the oldest masonry fort in the Continental United States.
    The Monument has never had a visitor center and has relied upon 
exhibits within the fort to provide visitor orientation and information 
even though it receives approximately 700,000 visitors each year. The 
need for a jointly developed and operated visitor center for the 
Monument and other local attractions was identified in the Monument's 
1977 Draft Master Plan. Currently, the Monument is developing a General 
Management Plan to replace this almost 30-year-old management document 
and initial scoping for the plan has also identified the need for this 
type of visitor center. In a public forum and process, the General 
Management Plan will seek to confirm the purpose, function, and scope 
of the proposed visitor center. Both of these plans encourage better 
cooperation between the NPS and the agency that interprets the civilian 
life of the Spanish soldier within the local community.
    The educational center proposed in H.R. 2457 would serve the 
Monument, where the military story of the Spanish soldier's life is 
interpreted as well as the Colonial Spanish Quarter Museum operated by 
the City, where the civilian life of the soldier is interpreted. The 
City has operated the Spanish Quarter Museum since 1997 after being 
operated by the State of Florida since the mid 1960s.
    The overall project would consist of two phases with the first 
phase consisting of land acquisition and facility planning and design 
and the second phase being facility construction. The bill also could 
allow the value of the land to be used as part of an in-kind match for 
the City and Foundation's match of the Federal grant, if the land is 
donated to the Secretary. Although our understanding is that the intent 
is for the educational center to remain on City property and be City 
owned, should this donation occur, legislation would be required to 
expand the Monument's boundary around the proposed site of the 
educational center, which is adjacent to, but outside of, the current 
boundary.
    That completes my testimony. I would be happy to answer any 
questions that you or any members of the Subcommittee may have.
                                 ______
                                 
    Mr. Jarvis. The third bill that I would like to testify to 
today is H.R. 2715. Since we have limited time at this moment, 
I will like to invite the Superintendent of Yosemite, Mike 
Tollefson, to the table, but I would like to do that 
afterwards.
    Mr. Radanovich. If we can hear your testimony, Mr. Jarvis, 
and then recess and come back and then Mr. Tollefson can join 
you then for questions.
    Mr. Jarvis. We greatly appreciate the Subcommittee's 
support and leadership in this area of working with gateway 
communities. We look forward to working with you not only in 
this bill but also in future bills that relate to gateway 
communities.
    The Department strongly supports section 1 which would 
allow the National Park Service to participate actively in the 
future of the Yosemite Area Regional Transportation System, or 
YARTS. This has been a goal since the 1980 general management 
plan to participate in a regional transportation system. So we 
do support that section.
    We are concerned about one aspect of that, and that is the 
identification of user fees as one funding source. We feel that 
this has departmental, if not broader, implications for 
recreation fees, and we suggest that discussions of how those 
fees--recreation service wide if not departmental wide--be 
addressed in the future on field legislation.
    Section 2 regarding camping in the Upper and Lower Rivers, 
these proposals are not consistent with the 1980 general 
management plan, which has been modified by the Yosemite Valley 
Plan and the Merced River Plan. These plans have had many years 
of public comment and strike a balance between day use and 
camping. However, we would like to work with you further on 
this issue.
    Section 2 also calls for authorization of specific benefits 
to concession employees, and the Department does not believe 
that it is appropriate for the Federal Government to provide 
these kinds of subsidies to concession employees.
    Section 2 also would prohibit the use of funds for remote 
parking. We want to emphasize there are no plans to prohibit 
private automobiles in the Valley at any time. All we are 
trying to do is create transportation choices, and any remote 
parking would be 10 or more years away. But, again, we would 
like to work with you on those concerns.
    Section 2 also calls for the removal of the LeConte 
Memorial Lodge. The LeConte is one of four National Historic 
Landmarks, including the Ahwahnee, the Parsons Lodge and the 
Rangers Club; and the Department is opposed to removing this 
structure. Again, though, we would be happy to work with you on 
any concerns you have over its use.
    And that concludes my testimony.
    Mr. Radanovich. Thank you, Mr. Jarvis.
    [The prepared statement of Mr. Jarvis follows:]

   Statement of Jon Jarvis, Regional Director, Pacific West Region, 
  National Park Service, U.S. Department of the Interior, on H.R. 2715

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 2715, a bill to provide for 
necessary improvements to facilities at Yosemite National Park.
    The Department strongly supports enhancing partnerships and 
increasing communication between gateway communities and Yosemite 
National Park. These efforts are consistent with the Administration's 
``new environmentalism,'' an initiative that will help build a 
healthier environment, dynamic economies, and sustainable communities. 
At the center of the Department's plan to implement this new 
environmentalism are what Secretary Norton has termed the ``Four 
C's''--Communication, Consultation, and Cooperation, all in the service 
of Conservation. The Four C's recognize that both gateway communities 
and Federal lands can benefit from creative partnerships.
    Last Congress, the Department voiced strong support for improving 
partnerships and enhancing cooperation with gateway communities that 
border all Federal lands when we testified on H.R. 4622, the ``Gateway 
Communities Cooperation Act of 2002''. We appreciate the Subcommittee's 
leadership on this issue, and we look forward to continuing to work 
with you on these efforts.
    The Department strongly supports section 1 of H.R. 2715, with one 
exception identified in later in this testimony. Section 1 would 
authorize the use of donated funds, funds collected from user fees, or 
appropriated funds to pay for construction of facilities outside the 
boundaries of the park that serve Yosemite and its visitors. This 
provision, which is similar to authority that has existed since 1996 
for Zion National Park, would facilitate the development of the 
Yosemite Area Regional Transportation System (YARTS) by allowing the 
National Park Service to help pay for the costs of YARTS facilities 
outside the park.
    The development of a regional transportation system for Yosemite 
and its gateway communities as a means of providing transportation 
choices to the park for visitors and employees has been a goal of the 
Department since the adoption of the park's General Management Plan in 
1980. In 1999, Mariposa, Merced, and Mono counties created a Joint 
Powers Authority as an entity to implement YARTS and entered into a 
cooperative agreement with Yosemite National Park. Now in its fourth 
successful year, YARTS provides excellent service and connections to 
broader transportation systems such as Amtrak. Visitor usage of YARTS 
has increased by about 20 percent in each of the last two years. 
Although ridership and revenues are increasing, in order to become 
fully functional, YARTS is still in need of strong support to help it 
expand and provide quality service. The authority provided by section 1 
would allow the National Park Service to provide a financial 
contribution to the expansion of YARTS.
    While we support section 1, we are concerned about authorizing the 
use of ``user fees,'' as one of the funding sources for activities 
under this bill. We note that Chairman Pombo has committed to working 
on the authorization of the recreation fee program and has expressed 
support for using recreation fees to increase the enjoyment of the 
recreational experience on Federal lands. Determining how recreation 
fee money is spent to enhance visitor facilities and services is an 
important element of the recreation fee program for all participating 
agencies. While we recognize that creative and mutually-beneficial 
opportunities exist to link gateway communities with the recreation fee 
program, we suggest that the issue of whether activities authorized by 
H.R. 2715 are an appropriate use for recreation fees be addressed 
during upcoming discussions on recreation fee legislation.
    Section 2 of H.R. 2715 requires the Secretary to allocate funds 
identified in section 1 for a number of planning, transportation, and 
visitor service purposes. This section would require funding to be used 
for planning and restoration of low-impact camping at upper and lower 
river campgrounds. This is not included in the park's 1980 General 
Management Plan as amended by the Yosemite Valley Plan and the Merced 
Wild and Scenic River Comprehensive Management Plan. These plans were 
developed over many years with extensive public involvement and 
comment. We believe the General Management Plan strikes a balance 
between the recreational demands of day-users and campers visiting the 
park. However, we recognize Congress's authority to move forward on 
this issue and, if that occurs, we ask for the opportunity to work with 
the Subcommittee further on this issue.
    Section 2 would authorize activities, some of which are already 
allowed for under existing law relating to parking, traffic management, 
and housing and transportation for park employees. This section also 
would require the Secretary to provide housing and transportation 
benefits for employees of concessioners. Such benefits are not 
currently provided to these employees. The Department does not believe 
that it is appropriate for the Federal Government to provide concession 
employees with these types of benefits.
    In addition, section 2 would require funds be used to remove the 
LeConte Memorial Lodge in Yosemite. Built in 1903 and moved to its 
present location in 1918, the LeConte Memorial Lodge is one of four 
structures in the park designated as a National Historic Landmark, 
along with the Ahwahnee Hotel, Parsons Memorial Lodge, and the Rangers 
Club. Since this is a designated National Historic Landmark, the 
Department is opposed to removing this structure. We would be happy to 
discuss any concerns you may have about its use.
    We are unsure of the intent of the provision in section 2 that 
would prohibit the use of funds made available under this legislation 
to implement a shuttle system that uses remote parking facilities or 
includes operations outside the boundaries of Yosemite Valley. We do 
want the Subcommittee to be aware that there are no plans to prohibit 
private automobiles from entering and being used in Yosemite National 
Park. Instead, long-range proposals in the Yosemite Valley Plan look 
toward supplemental transportation choices through shuttle or bus 
systems to accommodate and better manage projected increases in 
visitation and to provide better connections to gateway communities. 
Most of these plans, including the development of remote parking 
facilities outside the valley, are at least 10 or more years away. We 
would like to work with the Subcommittee to address our concerns with 
this section.
    The National Park Service is putting a great deal of resources into 
improving the visitor experience, planning for growth of visitation, 
and increasing camping and day-use opportunities for the millions who 
visit Yosemite annually. We are also striving to better protect and 
enhance Yosemite's world-class natural and cultural resources, and to 
coordinate even more closely with our gateway partners to provide for 
better communities and a better Yosemite.
    Mr. Chairman, that concludes my statement. We look forward to 
working with the Subcommittee as the Department has an opportunity to 
review the bill further. I would be happy to answer any questions you 
or other members of the Subcommittee may have.
                                 ______
                                 
    Mr. Radanovich. We are under the voting--apparently, the 
gentleman from Vermont is not happy with a few things, so he is 
calling a lot of procedural votes right now, so we have to 
recess briefly. It will only be one vote, so the recess will be 
very short, and we will join you shortly.
    [Recess.]
    Mr. Radanovich. We are back in session, and hopefully there 
won't be any more votes. I am going to ask you a question, Mr. 
Adams, regarding H.R. 2457.
    There are several entities working together on this 
project--the State of Florida, City of St. Augustine, the 
Colonial St. Augustine Preservation Foundation and the National 
Park Service. Can you give us an overview please of these 
organizations and how they will work together and the role that 
each will serve in carrying out this project?
    Mr. Adams. Yes, sir. The City of St. Augustine maintains a 
museum across the--adjacent to the Castillo de San Marcos that 
interprets the civilian side of the colonial experience. The 
National Park Service at the Castillo interprets the military 
side. So we would anticipate that there would be a joint 
operation of the center by the City and the Castillo in 
offering these services to visitors.
    The funds for the purchase of the property and for the 
development of the building would be provided by this 
legislation and by the Colonial St. Augustine preservation 
Foundation. The City of St. Augustine and the State of Florida 
will contribute the land for the project. The center then that 
results would be, in our current planning, current thinking, 
would be Title II to the City of St. Augustine and would be 
under lease to the Park Service or a permit to the Park Service 
to conduct just visitor orientation services within the 
building. So that, consequently, we do not anticipate that the 
Park Service would have any expense in future years in the 
maintenance or operation of the building itself.
    Mr. Radanovich. Thank you very much.
    Mr. Jarvis, a couple of questions on H.R. 2715, the 
Yosemite bill. While I definitely do appreciate the 
administration's support for my efforts to enhance an increased 
communication between the gateway communities and Yosemite 
National Park, I am a little perplexed as to why the service 
remains steadfast against any efforts to restore some of the 
basic low-impact campsites to the Upper and Lower River 
campground areas.
    After all, what would be the harm, especially noting that 
the campsites would be placed within a 150-foot setback from 
the river? Does the Bush administration place restoration of a 
riverbank above providing a basic recreation opportunity? And 
would you agree that low-impact campsites are good use of an 
area located within the flood plain which Upper and Lower River 
camp grounds are?
    Please feel free to bring Mike Tollefson, who, of course, 
is Superintendent, up to table as well. Mr. Jarvis, I know that 
you asked previously to do that; and I want to welcome Mike to 
the Subcommittee hearing.
    Mr. Jarvis. Thank you, Mr. Chairman. I appreciate it.
    We feel--the Department feels that the plans that have been 
worked out with the public over the last--well, almost 20 plus 
years and most intensely over the last few years are all 
integrally linked. They all strive to strike the appropriate 
balance between the needs of camping and day use, and they all 
begin with the basis of the Merced River plan which zones a 
protection area along the river and identifies appropriate 
recreational uses that really does, I believe and the National 
Park Service believes, an elegant job in distributing the 
public throughout the Valley and enhancing their experiences. 
The--and there is a lot invested here with the lineup of 
projects to implement this over the next 5, 10 years.
    So it is our feeling that it strikes the appropriate 
balance without the restoration or without the reconstruction 
of these campsites. We feel there are other places in Yosemite 
where campsites can be added without opening up the whole 
planning effort again and creating the controversy that 
Yosemite tends to generate.
    Mr. Radanovich. It is noted that since the flood of 1997 
the Upper and Lower River campgrounds have been shut down, and 
the idea in the plan is to dedicate that land primarily to 
habitat restoration. I think it has been said there has been a 
lot of activity in that area since the enclosure of the 
campgrounds anyway. Is it in your mind going to be tough if 
this area is dedicated to habitat restoration? It is going to 
be hard to keep people out of that area anyway, isn't it?
    Mr. Tollefson. Mr. Chairman, the plan calls also for day 
use. One of the things we have been focused on is to begin a 
day use plan in that area, and there are some areas in there--
there are three great beaches that are seeing an increase in 
day use. As we speak today, I am sure people are frolicking on 
the beach after river rafting down the river. So there are 
several areas that have been clearly identified that we could 
allow a significant amount of day use that would relieve 
pressure from other areas in the Valley.
    Mr. Radanovich. So there is going to be a human footprint, 
I think, on the restoration area anyway.
    Mr. Tollefson. Yes, sir.
    Mr. Radanovich. Mr. Jarvis, you mentioned the 
administration's opposition to removing the LeConte Memorial 
because it has been designated a National Historic Landmark. 
Would you not agree that the landmark status refers to the 
building itself and not to the land that it is currently 
sitting on?
    Mr. Jarvis. That is correct. It does refer to the 
architectural design of the building and its setting.
    Mr. Radanovich. Isn't it true that the building has been 
moved once already?
    Mr. Jarvis. Yes.
    Mr. Radanovich. You mention in your testimony, Mr. Jarvis, 
that the Service currently has no plans to prohibit automobiles 
from entering and being used in the park, but in the long term 
you are developing supplemental transportation choices. My 
immediate concern is not that this administration has plans to 
remove the family minivan from enjoying a day in Yosemite, or 
any car for that matter, but future administrations. Why not 
prevent the elimination of choices now before they are 
eliminated in the future?
    Mr. Jarvis. The National Park Service prides itself, I 
believe, in being a leader in transportation. Many of our parks 
in the system are experiencing not an overuse of the public but 
congestion as a result of the private automobile. We believe 
that providing the public a range of options to visit the park, 
particularly the transportation systems that are high quality, 
have interpretive opportunities, have looped trips can enhance 
the public's experience and Yosemite, is a perfect example of 
that as well.
    There are many things to be done, though, in the Valley in 
the next 10 years as we implement these plans that will change 
the way the Valley is being used and redistribute the public. 
So any plans for remote parking are in the outyears. So we felt 
it is not the time to limit those opportunities.
    Mr. Radanovich. Would you address, please, the issue of 
what I call special access that the Sierra Club has to the 
LeConte Memorial? I know there are some public activities that 
take place there. But the fact of the matter is that Sierra 
Club members have a special access into the park, kind of a 
special place to park, special place of their own. Don't you 
call that special access and isn't that kind of over and above 
what should be allowed when we are looking at cutting back the 
number of campsites and such in the Valley.
    Mr. Tollefson. Sierra Club manages LeConte and has since it 
was built as a memorial to John Muir and named after Dr. 
LeConte who passed away in the park. The programs that they put 
on--the predominant programs are public programs that they 
invite public to, and they are not advocacy programs. They are 
nature walks, that kind of program. I don't believe there is 
any special parking there for them, maybe other than one 
person, as I reflect on that, being so fairly new. There is no 
special parking in that location. Other organizations such as 
Yosemite Institute and Yosemite Association also use that 
facility for public programs.
    Mr. Radanovich. Thank you.
    One last question. Yosemite Valley plan calls for reducing 
day use parking to about 550 spaces, I believe. In my bill I am 
suggesting as many as 1,200 spaces. Does the Service believe 
that by reducing the number of spaces of day use parking that 
it will also reduce the number of day use visitors to the park?
    Mr. Tollefson. No, sir. The reduction in day use parking 
from the number of approximately 1,200 that we are using as 
today's current use level, reducing the parking is tied to 
providing a shuttle from outside of--west of the Valley, if you 
will, into the Valley in anticipation of an increase in the 
number of day use visitors.
    At 1,200 sites, we can accommodate the flow we have today, 
plus or minus 4 million visitors. But as the numbers increase, 
we are going to need to provide a different way to get them 
into the Valley, and it provides a better experience. Once they 
are there today and park their cars, almost 2.8 million people 
ride the existing shuttle system in the Valley.
    Mr. Radanovich. Separate shuttle system.
    Mr. Tollefson. Yes, sir.
    Mr. Radanovich. All right. I think those are the extent of 
my questions.
    I know Mr. Mica was not able to make it back, and he did 
have one question, and I am going to ask it of Dr. Adams--to 
you, Mr. Adams. I know Mr. Mica wanted to know how is the 
project that is being proposed, how is it unique from many of 
the other requests that this Committee receives?
    Mr. Adams. Well, I am not familiar with the other requests 
that this Committee receives, but I would suggest that one of 
the things that is unique about this is the partnership that is 
involved. We have brought all the players in--St. Augustine, 
Federal, State and local governments and the private citizens 
as well--into this project; and it will result in one that will 
be also cooperatively administered and managed by the City and 
the National Park Service.
    Mr. Radanovich. All right, gentlemen. Thank you. I think 
that is the extent of my questions. I appreciate you being 
here.
    Mr. Tollefson, Mr. Jarvis, thank you for coming out for 
this; and Mr. Adams, thank you, too.
    This ends the hearing.
    [Whereupon, at 3 p.m., the Subcommittee was adjourned.]


</pre></body></html>
